CERTIFICATE OF SERVICE
No. TBD
Sandra G. Bale
Petitioner(s)
v.
USA et al.
Respondent(s)
STATE OF MASSACHUSETTS )
) SS.:
COUNTY OF NORFOLK
Being duly sworn, I depose and say under penalty of perjury:
That-I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the- document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
On the undersigned date, I served the parties in the above captioned matter with the SANDRA
G. HALE PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies of the- same
by LISPS Priority mail, postage prepaid for delivery to the following addresses:
Noel Francisco
Solicitor General of the U.S.
Department of Justice
950 Pennsylvania Ave NW, Rm. 5614
Washington, DC 20530-0001
(202) 514-2203
SupremeCtBriefs@USDOIgov
Counsel for United States of America

I)an Abranaovich
October 28, 2019
SCP Tracking: Hale-218 Autumn Springs Lane-Cover. White

